PROOF OF SERVICE
I, Ramesha L. Glover, pursuant to Rule 29 of the United States Supreme Court,
personally served three copies of the Petition for Writ of Habeas Corpus and one
copy of the Appendix to the Petition for Writ of Habeas Corpus to Miami-Dade
Corrections & Rehabilitation Department (Daniel Junior) via UPS, on September
24, 2019.

Director Daniel Junior
Miami-Dade Corrections and Rehabilitation
Dr. Martin Luther King Office Plaza
2525 NW 62nd St.
Miami, FL 33147
Tracking Number^

Pursuant to 28 U. S. C. ยง1746,1, Ramesha L. Glover, declare under penalty of
perjury that the foregoing is true and correct.

Executed on September 24, 2019

Ramesha L. Glover

